LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 25, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-292: ROXANNE TORRES V. JANICE MADRID AND RICHARD WILLIAMSON
Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioners, on November 25, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
Mark Daniel Standridge
Jarmie & Rogers, P.C.
P.O. Box 344
500 North Church Street
Las Cruces, NM 88004
(575) 526-3338
mstandridge@jarmielaw.com
This service was effected by depositing three copies of the Petitioner's Reply
Brief in an official “first class mail” receptacle of the United States Post Office as well
as by transmitting a digital copy via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

